HHS/OIG-Audit--"Review of the Health Care Financing Administration's Development of a Prospective Payment System for Hospital Outpatient Department Services, (A-14-98-00400)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Health Care Financing Administration's Development of
Medicare's Prospective Payment System for Hospital Outpatient Department Services,"
(A-14-98-00400)
November 12, 1998
Complete Text of Report is available in PDF format
(1.64 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The Health Care Financing Administration (HCFA) plans to implement a prospective
payment system (PPS) for outpatient department (OPD) services in the Year 2000.
We reviewed HCFA's methodology for establishing fee schedules under the new
system and concluded HCFA's methodology will cause the fee schedules to be inflated.
The HCFA's methodology does not adequately adjusts for factors such as unallowable
costs and improper payments which were included in the base period when calculating
the fee schedule amounts and targeted expenditure ceiling. Hospitals will realize
windfall profits at Medicare's expense if these factors are not taken into account.
Also, OPD reimbursements are inflated in comparison to amounts paid for similar
services performed in other settings, such as ambulatory surgical centers and
physicians' offices. We are recommending that other studies be made to assess
the extent to which unallowable costs and improper payments were included in
base period costs, and that appropriate adjustments be made to the fee schedules
and expenditure ceiling. We are also recommending that HCFA carefully consider
the potential efficiencies demonstrated in various service settings when establishing
uniform payment rates. The HCFA concurred with our recommendations.